                  U.S. GENERAL SERVICES ADMINISTRATION
                  Office of Inspector General
                  Pacific Rim Regional Office of Investigations


                            FOR OFFICIAL USE ONLY

                             ADMINISTRATIVE DATA PAGE


Character of Case:           THEFT OF GOVERNMENT PROPERTY
                             MISUSE OF GOVERNMENT PURCHASE CARD
                             MISUSE OF GOVERNMENT PROPERTY AND POSITION


Subject:                     Hats Off – Employee Recognition Program
                             Pacific Rim Region (Region 9)
                             San Francisco, CA


OIG Case File Number:        I1090196


Date of Report:              June 16, 2011


Prepared By:

                             Pacific Rim Regional Office of Investigations (JI-9)
                             Office of Inspector General
                             U.S. General Services Administration


Approved By:

                             Pacific Rim Regional Office of Investigations (JI-9)
                             Office of Inspector General
                             U.S. General Services Administration




                            FOR OFFICIAL USE ONLY
                          Pacific Rim Regional Office of Investigations (JI-9)
                 FOR OFFICIAL USE ONLY


                     TABLE OF CONTENTS


Section                                         Page Number


BASIS FOR INVESTIGATION……………………………………………..           3


EXECUTIVE SUMMARY…………………………………………………...              4


BACKGROUND……………………………………………………………..                  5


DETAILS OF INVESTIGATION……………………………………………            6


  -   PROGRAM WEAKNESSES………………………………………..            6


  -   PERSONNEL CONDUCT ISSUES………………………………..         9


DISPOSITION……………………………………………………………….                13


EXHIBITS…………………………………………………………………….                 14




                 FOR OFFICIAL USE ONLY
                   Case File Number: I1090196
                                2
                         FOR OFFICIAL USE ONLY

                            BASIS FOR INVESTIGATION

The U.S. General Services Administration (GSA), Office of Inspector General (OIG),
received information from the Federal Protective Service, U.S. Department of Homeland
Security, advising that approximately 40 iPods with an estimated value of $8,000 were
reported stolen from a GSA storage room on the 4th Floor of the Phillip Burton Federal
Building in San Francisco, CA. A preliminary review of the referral determined that the
alleged theft involved merchandise belonging to the Pacific Rim (Region 9) Hats Off –
Employee Recognition Program (Hats Off Program), and the loss involved more than 40
iPods.




                         FOR OFFICIAL USE ONLY
                            Case File Number: I1090196
                                         3
                           FOR OFFICIAL USE ONLY

                                 EXECUTIVE SUMMARY

The lack of management controls made it impossible to determine who stole the iPods.
In addition, tens of thousands of dollars in gift cards were also maintained in the Hats
Off Program storage room. Due to a lack of accountability and internal controls, we
could not determine if any of these cards were stolen or otherwise misused.

We identified numerous internal control weaknesses and abuses, including the
following:

•   There is an inadequate inventory process for tracking purchases and awards from
    the Hats Off Program store, and no audit mechanism exists to track changes to
    inventory.

•   There are award abuses, including patterns of employees exchanging awards with
    one another and supervisors accepting awards from subordinates.

•   Top award recipients include individuals associated with the administration of the
    Hats Off Program.

•   There is a lack of accountability for “Manager Special” awards, which are items used
    as gifts or prizes at meetings and events. Records of award recipients, or of
    justification for the awards, are lacking or inconsistent.

•   There is a lack of physical security for award items in storage.

•   Award items exceeded the $99 limit per item, in violation of GSA policy.

•   Total employee awards, including the Hats Off Program awards, collectively
    exceeded four percent of Region 9 associates’ salaries for two of the past four fiscal
    years, in violation of GSA policy.

In addition, we identified personnel conduct issues involving two Hats Off Program
personnel and                                      The bases for these conclusions are
outlined in the following pages.




                           FOR OFFICIAL USE ONLY
                              Case File Number: I1090196
                                           4
                            FOR OFFICIAL USE ONLY

                                   BACKGROUND

Public Buildings Service (PBS) Region 9 developed an awards program store known as
the Hats Off Store. Shortly after the program was established in 2001, program officials
self-identified numerous areas of concern regarding potential abuse, such as
employees giving themselves awards or swapping unwarranted awards with other
employees, and theft of award certificates. The Hats Off Program initially maintained
items of nominal value such as mugs, mouse pads, and backpacks, labeled with GSA
logos or insignia. However, over time, high-value items such as iPods, digital cameras,
GPS devices, and other electronics were introduced into the program (Exhibits 1 – 6).

Under the Hats Off Program, Region 9 employees have an online account at the Hats
Off Store. Each employee receives 40 virtual cards (on-line coupons) that may be given
to their coworkers in Region 9 or other regions for a “specific, work-related reason.”
Employees are advised that they “may not issue virtual cards to themselves,
contractors, or supervisors.” Members of the Leadership Council have the authority to
give “Derby Hat” awards, worth up to 20 virtual cards, and the Regional Administrator,
PBS Regional Commissioner, and Deputy Regional Commissioner are authorized to
give “Top Hat” awards, worth up to 40 virtual cards (or, alternatively, worth any one
item in the store). Employees can redeem the virtual cards they receive for items in the
store, which include, for example, a Coby 7 Portable DVD Player Tablet (20 virtual
cards), an 8GB iPod Nano (30 virtual cards), and an item of Lipault luggage, size large
(34 virtual cards). In addition, senior management can award a “Manager Special.” A
Manager Special includes items taken out of the inventory and used as gifts for GSA
speakers, or as prizes at conferences, off-site meetings, and other events (Exhibits 6
and 7).

As shown in Table 1 below, the annual Hats Off Program budget for Region 9 has
increased significantly since its inception, surpassing $200,000 in FY 2009 and totaling
over $134,000 in FY 2010 (Exhibit 8).

Table 1. FY Hats Off Program Expenditures

 Fiscal Year       2007           2008           2009           2010           2011
Total Amount      $45,300        $47,012       $211,842       $134,596         $844


For FY 2009, this averages approximately $256 per Region 9 employee, or $328 per
PBS employee.




                            FOR OFFICIAL USE ONLY
                              Case File Number: I1090196
                                           5
                          FOR OFFICIAL USE ONLY

                            DETAILS OF INVESTIGATION

The investigation revealed that although it was initially reported that 40 iPods were
stolen, approximately 115 iPods valued at more than $20,000 were unaccounted for
and may have been stolen from the Hats Off Program. Neither the precise number and
value of the missing iPods nor the identity of the person or persons responsible could
be determined, due largely to a significant lack of internal controls. We also could not
determine whether gift cards acquired for the Hats Off Program were stolen or abused.

Our investigation revealed significant control weaknesses in the Hats Off Program. In
addition, the evidence showed certain uses of Government Purchase Cards to acquire
items for the Hats Off Program violated GSA policy, and
                                                  obtained Hats Off Program items for
work-related demonstration purposes, but then used them for personal use.       also
initially denied to OIG Special Agents that    used them for personal use. Below we
discuss each significant internal control weakness as well as the personnel conduct
issues that we identified.

PROGRAM WEAKNESSES

The Hats Off Program has an inadequate inventory process for tracking
purchases and awards, and no audit mechanism exists to track changes to
inventory.

The Hats Off Program utilizes a computerized database that requires an employee log-
in and is accessible via the Region 9 InSite webpage to track inventory and awards.
The Hats Off Program started in 2001; however, the database did not include all items
in the inventory or awards until approximately October 1, 2010. The inventory in the
database is updated periodically, but not every time items are added or removed.
Furthermore, the database does not possess an audit mechanism, meaning any
employee associated with the Hats Off Program who possesses administrator rights
(approximately five employees) can add or subtract items from the database, leaving no
evidence that they did so. Additionally, through the Manager Special, any GS-14
manager and above can take items out of inventory at his or her discretion with no audit
trail indicating that he or she has done so, unless one of the employees associated with
the Hats Off Program manually enters the action(s) in the database (Exhibit 6 and 7).

The OIG Investigation revealed many award abuses, including patterns of
employees exchanging awards and supervisors accepting awards from
subordinates.

The Hats Off database tracks when and to/from whom an award is given. The award
types are “Virtual Hat,” “Derby Hat,” and “Any One Item.” At the start of the new fiscal
year, each non-supervisory employee receives 40 Virtual Hats (valued at approximately
$5 each for a total of $200 per GSA employee) to be given out throughout the year for
peer-to-peer recognition. An OIG review of the Hats Off Program database from
October 2009 to January 2011 combined with an interview of

                          FOR OFFICIAL USE ONLY
                             Case File Number: I1090196
                                          6
                         FOR OFFICIAL USE ONLY

                                                              PBS, revealed a
pattern of employees exchanging awards amongst themselves (sometimes within
minutes of each other) and supervisors accepting awards from subordinates (Exhibits 9
and 10).

Individuals associated with administration of the Hats Off Program were among
the top award recipients.

The OIG investigation of the database showed that personnel associated with Hats Off
Program administration were in the top ten award recipients, including
                   who administers the day-to-day activities of the Hats Off Program
store and storage room, and the employee who created the database used to track
inventory and awards. In addition,
                     , PBS, was in the top ten award givers. Over a 13 month time
period,                gave out 635 awards to 113 individuals, totaling $3,175.
         explained those were not personal awards, but rather were handed out for
conference participation (Exhibits 6 and 9).

There is a lack of accountability for Manager Special awards; little or no records
are kept of award recipients or of the justification for the awards.

As previously stated, a Manager Special is an item used as a gift for a GSA speaker or
a prize at a conference, off-site meeting, or other event. Manager Special requestors
contact Hats Off Program personnel or management directly via e-mail or telephone
and are not required to submit formal online requests. The merchandise is then
provided to the requestor and subsequently entered into the database manually by Hats
Off Program personnel. Records reflecting the recipient of the award or the event
where the award is going to be presented are lacking or inconsistent, which represents
a serious lack of internal controls (Exhibits 3 and 6).

There is a lack of physical security for award items in storage.

The Hats Off Program storage room is protected by a locked door (it has a cipher lock
that can be opened with a code or key), but is penetrable by simply climbing over the
room walls through the ceiling in the adjacent room. The number of individuals in
possession of keys to the Hats Off Store cannot be determined because the store was
occupied by another office before being converted to the Hats Off Store. Further, while
only two employees had codes to enter the Hats Off Store, they shared those individual
codes with other employees (Exhibits 3 – 5 and 11 – 14).

Award items exceed the $99 limit per item established by GSA policy.

High-value items such as iPods and DVD players exceeded the $99 value limit per item
imposed by GSA Directive CPO P 9451.1, GSA Associate Performance Recognition
System. That directive states that non-monetary awards “must be of nominal value not
to exceed $99.” Hats Off Program guidelines reiterate that the maximum value of an
item in the store is $99.

                         FOR OFFICIAL USE ONLY
                             Case File Number: I1090196
                                          7
                              FOR OFFICIAL USE ONLY


A review of Hats Off Program purchase invoices revealed that Region 9 paid $179.99
each for the iPods and $138.99 each for DVD players offered through the program.
Furthermore, an examination of a sample of Best Buy invoices documenting Hats Off
Program purchases totaling more than $30,000 during September and October 2009
revealed that approximately 87% of the merchandise purchased exceeded the $99
threshold. The most expensive item purchased was identified as a $229.99 Tom Tom
GPS.


PBS, is responsible for the day-to-day management of the Hats Off Program. Both
and     immediate predecessor,                told OIG Special Agents that they were
unaware of GSA Directive CPO P 9451.1 and the $99 per item limit until a few months
ago (Exhibits 6, 10, and 15).

Total employee awards, including the Hats Off Program awards, collectively
exceeded 4% of Region 9 associates’ salaries for two of the past four fiscal years,
in violation of GSA policy.

                                                       advised that the annual budget
for the non-monetary awards in the Hats Off Program combined with the region’s
monetary awards may not exceed 4% of Region 9 associates’ salaries. This is
consistent with GSA Directive CPO P 9451.1, GSA Associate Performance Recognition
System, which limits total awards to 4% of total base pay (Exhibit 16):

   Services, Staff Offices and Regions shall allocate up to 4 percent of the base pay of
   their salary budget for awards during each fiscal year. This acts as a cap on all
   awards in the Services, Staff Offices, and/or Regions including individual and
   organizational performance awards, special act awards, award stores, peer awards,
   as well as the cost of any Quality Step Increases granted, annualized for the first
   year.

As shown in Table 2 below, documentation provided by                 indicated the
region exceeded the 4% cap in 2008 and 2010. The Hats Off Program’s use of an
unreliable awards tracking database and non-compliance with quarterly reporting
requirements to the CFO likely contributed to the Region exceeding the cap (Exhibit 8).

Table 2. FY Awards to Total Salary Percentage Information

        Fiscal Year             2007       2008        2009        2010         2011
 Awards to Total Salary (%)     3.22%      4.75%      3.78%        4.12%        3.77%


According to their statements to the OIG, neither              nor                were
aware of the overall 4% cap or that the Hats Off Program was included in that cap; they
believed until recently that the Hats Off Program budget was separate and independent


                              FOR OFFICIAL USE ONLY
                                Case File Number: I1090196
                                             8
                          FOR OFFICIAL USE ONLY

from any other employee recognition program or other region budget line item (Exhibits
6 and 10).

PERSONNEL CONDUCT ISSUES

We identified the following personnel conduct issues in connection with the
administration of the Hats Off Program.

Misuse of GPCs to acquire items for the Hats Off Program

At least five GPCs in Region 9 were used to make purchases for the Hats Off Program.
The evidence showed the following violations of GSA Directive CFO 4200.1A, Use of
the GSA Purchase Card:

•   The directive states that cardholders are responsible for safeguarding their cards
    and preventing others from using them.
                          , PBS, and
                                        permitted others to use their GPCs to purchase
    merchandise for the Hats Off Program. The others included two Student
    Cooperative Interns, who possessed no formal purchase card knowledge or training,
    an Administrative Assistant who had       own GPC, and an employee who did not
    possess a GPC.                     who approved the purchases, stated         was
    aware that employees allowed the student co-ops and interns to use their GPCs
    (Exhibits 4 – 6, 17, and 18).

•                   is a cardholder with a $3,000 purchase limit.                is a
    warranted contracting officer with a single purchase limit of $25,000. The directive
    states that cardholders may not split purchases into two or more transactions to
    circumvent their single purchase limit.                acknowledged that       GPC
    was used to complete some split purchases to avoid exceeding          card’s single
    purchase limit. However, both                   and                  denied there
    were any split purchases (Exhibits 6, 17, and 18).

•   As shown in Table 3 on the next page, an OIG review of purchases made on the
    same day from the same company disclosed that                     GPC was used to
    complete apparent split purchases on three different days in FY 2009 (Exhibit 19).




                          FOR OFFICIAL USE ONLY
                              Case File Number: I1090196
                                           9
                           FOR OFFICIAL USE ONLY


Table 3. Apparent Split Purchases Made Using                          GPC

Category                   Vendor                             Purchase Amount       Date
Electronic Sales           BESTBUYCOM     88994009                $1,500.00       9/3/2009
Electronic Sales           BESTBUYCOM     88994009                $1,875.00       9/3/2009
                                                                  $3,375.00

Miscellaneous and
Specialty Retail Stores    AMZ GIFTCARDS                          $1,125.00       9/1/2009
Miscellaneous and
Specialty Retail Stores    AMZ GIFTCARDS                          $1,500.00       9/1/2009
Miscellaneous and
Specialty Retail Stores    AMZ GIFTCARDS                          $2,500.00       9/1/2009
                                                                  $5,125.00


Computer Software Stores   APL APPLEONLINESTOREUS                 $1,027.00       8/22/2009
Computer Software Stores   APL APPLEONLINESTOREUS                 $2,923.00       8/22/2009
                                                                  $3,950.00

•   As shown in Table 4 below,                 GPC was used to complete an apparent
    split purchase on one day in FY 2009; no apparent split purchases were noted in FY
    2010 (Exhibit 19).

Table 4. Apparent Split Purchases Made Using                          GPC

Category                   Vendor                             Purchase Amount       Date
Electronic Sales           BEST BUY    00009738                  $10,542.27       9/21/2009
Electronic Sales           BEST BUY    00009738                  $22,607.95       9/21/2009
                                                                 $33,150.22

                   Use of Items Obtained from the Hats Off Program

During the initial phase of the investigation into the theft from the Hats Off Store, OIG
Special Agents obtained registration data from Apple for the iPods that were alleged to
have been stolen. One of the iPods alleged to have been stolen was registered to
                                                                                      This
prompted further investigation into the matter and two interviews by OIG Special Agents
with

•   Through a subordinate,               obtained numerous items as Manager Special
    awards from the Hats Off Program, including a Canon digital camera, a Garmin
    GPS, a Sony eReader, an iPod and iPod speakers.                   said    obtained
    the merchandise from the Hats Off Program so that      could show      “Road Show”
    audiences specific examples of the types of items available for employee recognition

                           FOR OFFICIAL USE ONLY
                              Case File Number: I1090196
                                          10
                            FOR OFFICIAL USE ONLY

    through the Hats Off Program.                  Road Shows were intended to inform
    personnel in     region of ongoing events and    used this opportunity to show off
    the items that employees could get in the Hats Off Program. During      initial
    interview with OIG Special Agents,               stated    used the items for work-
    related purposes only (Exhibits 20 and 21).

•   Subsequent to the initial interview,          provided OIG Special Agents the
    camera, GPS device, and the iPod.    also stated that   had discarded the Sony
    eReader and iPod speakers because the items were broken or defective (Exhibits
    22 and 23).

•   OIG Special Agents confirmed that the serial number of the iPod in
    possession was one of the iPods originally reported stolen. According to Apple’s
    records, it had been registered to              listing   home address, home
    telephone number, GSA telephone number, and           GSA e-mail address. A review
    of the iPod’s memory revealed the iPod had been named “GSA iPod” and 41 songs
    had been downloaded to the device (Exhibit 24).

•   A forensic examination of the camera and the GPS device’s electronic memory
    revealed that each had been used for GSA-related purposes. The camera
    contained digital images (of which over 750 had been deleted from the memory card
    and had to be forensically recovered) of conferences and ground-breaking events,
    and the GPS device’s memory showed addresses to GSA buildings and other GSA-
    related addresses. However, the memory review also revealed non-GSA related
    uses, such as personal home photographs and videos on the camera memory, and
    addresses not identifiable with a GSA building or event on the GPS device (Exhibits
    22 and 25).

•   During a follow-up interview with                  to address the findings from OIG’s
    review of the camera, GPS device, and iPod,          reiterated that    used the items for
    GSA-related matters. When confronted with the findings of OIG’s review,
           admitted that some of the photos and video on the camera were personal in
    nature, such as photos of         and         in off-duty situations at home, on
    vacation, and during social events.        also admitted      put personal music and
    movies on the iPod, although        stated    downloaded the movies to demonstrate
    how the item worked. Although                     stated that the items were obtained
    temporarily to showcase during         Road Shows,        admitted that    discarded all of
    the original packaging.                  also stated that before     disposed of the
    Sony e-reader,      lent it to a co-worker who was interested in purchasing one for
            . At the end of the interview,                 said    wished     could say
    had not used the items for personal use, but        just did not remember (Exhibit 26).

•   Subsequent to the follow-up interview,                 advised OIG Special Agents via
    e-mail that “now that I have seen the pictures I know they were taken with my
    personal camera. I am also quite sure that, at some point, I have used the camera
    and the gps for something other than business. Don’t recall specifics but I I feel
    pretty confident I did not use the devices solely for work. As to the pictures, they
                            FOR OFFICIAL USE ONLY
                               Case File Number: I1090196
                                           11
                     FOR OFFICIAL USE ONLY

had to have come from my personal camera. I have many micro sd cards – one in
my personal cell, one in my personal camera, one in my gsa blackberry, one in my
      cell. Etc. To have those images on the gsa camera is only possible if I
somehow put the micro sd in the wrong camera. The underwater pics tell me that”
(Exhibit 27).




                     FOR OFFICIAL USE ONLY
                         Case File Number: I1090196
                                     12
                        FOR OFFICIAL USE ONLY

                                   DISPOSITION

This investigation is closed, pending a review by GSA management to determine
whether administrative action is warranted.




                        FOR OFFICIAL USE ONLY
                           Case File Number: I1090196
                                       13
                        FOR OFFICIAL USE ONLY

                                    EXHIBITS

1.    Memorandum of Activity, Identification of Key Program Personnel (Past and
      Present), May 19, 2011

2.    Memorandum of Interview,                February 24, 2011

3.    Memorandum of Interview,                  June 24, 2010

4.    Memorandum of Interview,                  , August 25, 2010

5.    Memorandum of Interview,                    , August 25, 2010

6.    Memorandum of Interview,                 March 3, 2011

7.    Memorandum of Interview,                   May 18, 2010

8.    FY 2007 to FY 2011 Salary and Awards Comparison Information provided by
      Rollo

9.    Memorandum of Activity, OIG Analysis of Hats Off Award Data, May 5, 2011

10.   Memorandum of Interview,                   February 23, 2011

11.   Memorandum of Interview,                   June 24, 2010

12.   Memorandum of Interview,                 December 29, 2009

13.   Memorandum of Interview,               May 25, 2010

14.   Memorandum of Interview,             May 25, 2010

15.   Memorandum of Activity, Telephone Contact with                     February
      22, 2011

16.   Memorandum of Interview,               , February 25, 2011

17.   Memorandum of Interview,                March 10, 2011

18.   Memorandum of Interview,                    , March 9, 2011

19.   Memorandum of Activity, Split Purchase Analysis –                   , April 9,
      2011

20.   Memorandum of Activity, Receipt for Program Items to be used for        Road
      Show, May 25, 2010


                        FOR OFFICIAL USE ONLY
                           Case File Number: I1090196
                                       14
                        FOR OFFICIAL USE ONLY

21.   Memorandum of Interview,                 March 9, 2011

22.   Memorandum of Activity, Verification of iPod, GPS, and Camera, March 9, 2011

23.   E-mail from             to the OIG Regarding Broken/Missing Hats Off Items,
      March 15, 2011

24.   Memorandum of Activity, Review of iPod Provided by                March 15,
      2011

25.   Memorandum of Activity, Review of Camera and Media Card Provided by
           March 15, 2011

26.   Memorandum of Interview,                 March 25, 2011

27.   E-mails from               to the OIG Regarding the Contents of the Media Card,
      April 25, 2011




                        FOR OFFICIAL USE ONLY
                           Case File Number: I1090196
                                       15
